Audit Report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grant
to the Saginaw County Consortium
Saginaw, Michigan
GR-50-01-006
August 10, 2001
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of the grant awarded by the Office of Community Oriented Policing Services (COPS) to the Saginaw County Consortium, Saginaw, Michigan.  The purpose of the grant is to enhance community policing.  The Consortium (which includes 18 law enforcement departments and 6 criminal justice agencies) was awarded $2,422,177 to develop an integrated criminal justice information system including the purchase of 204 computer laptops and related peripherals, to be used in their vehicles.  According to the grant application, the time saved by using the laptops will allow the Consortium to redeploy the equivalent of 96.9 full-time officers to community policing.

We reviewed the Consortium's compliance with four essential grant conditions.   The Consortium complied with the local matching funds requirement of the grant, but we found weaknesses in the three other areas tested: reimbursement requests, redeployment of officers, and community policing.  Specifically, the grant application lacked details regarding the specific community policing activities to be carried out by individual Consortium members; thus, we could not verify whether they were appropriately performing community policing activities.  Based on our audit, we also determined that the Consortium was not making adequate progress in implementing the grant.  Consequently, we question the $1,903,899 received by the grantee and recommend the remaining $518,278 be put to better use. 1  Specifically:

We question $1,903,899 because the Consortium had not developed a redeployment plan and was not tracking time savings for those components of the grant project that were operational.  Moreover, contrary to COPS requirements, the grant project as a whole will not be fully operational until after the scheduled end date of the grant.  In addition, inventory records for the grant purchased computer equipment were incomplete and inaccurate.  The questioned amount includes funds spent on idle and improperly used equipment as summarized below.  
		
The Consortium was reimbursed for 13 laptop computers, valued at $70,044 in excess of its needs.  Consortium officials viewed the computers as spare equipment.  In our judgment, the 13 computers are idle equipment that were not directly contributing to time savings.  Thereby, we question the $70,044 as they were not used to enhance community policing.  

		We also question the $5,388 reimbursement for a computer located at the residence of a judge.  According to the COPS Grant Owners Manual, the award can only fund technology, equipment, and support resources that directly contribute to increased community presence through redeployment.  
		
Of the $518,278 in unexpended grant funds, the Consortium determined that it would not use approximately $240,000 as originally intended.  However, as of the time of fieldwork, it had not requested approval from the COPS office to reprogram these funds.  Consequently, we recommend that the $518,278 be put to better use. 

Our findings are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I. 


Footnote

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix IV for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.